No. 21-_
IN THE

supreme <!Court of tbe Wnitel:r states
ESTATE OF MADISON JODY JENSEN,
EX REL. JARED JENSEN,

Petitioner,
V.

KENNON TUBBS,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that a copy of the
Petition for a Writ of Certiorari in Estate of Jensen v. Tubbs, No. 21-_, was served
via overnight and electronic mail on all parties required:
Cortney Kochevar
RICHARDS BRANDT MILLER NELSON

111 East Broadway, Suite 400
Salt Lake City, UT 84111
(801) 531-2000
Cortney-Kochevar@rbmn.com

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: July 30, 2021

Louis K. Fisher

